                                                                         AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Michigan, Department of Natural Resources,
From October 1, 2008,Through September 30, 2010




Report No.: R-GR-FWS-0008-2011                                       January 2012
                                                                                            January 6, 2012

                                        AUDIT REPO
                                                 ORT
Memoranndum

To:       Director
          U.S. Fish and Wildlife Service

From:	    Suzanna I. Park
          Director off External Auudits

Subject: 	 Audit on U.S. Fish andd Wildlife Seervice Wildllife and Sporrt Fish Restooration Progrram
           Grants Aw
                   warded to the State of Michigan, Deppartment of Natural Resoources, From    m
           October 1, 2008, Throuugh Septembber 30, 20100 (No. R-GR  R-FWS-0008-2011)

        This report prresents the reesults of ourr audit of cossts claimed by the State of Michigann
(State), Department of Natural Resources (D    Department), under grants awarded byy the U.S. Fish
and Wilddlife Service (FWS). FW   WS provided the grants too the State unnder the Willdlife and Spport
Fish Resttoration Proggram (Progrram). The auudit includedd claims totalling approximately $83.8
million on 23 grants that were oppen during State fiscal yeears (SFYs) that ended
September 30, 2009, and Septem    mber 30, 20100 (see Appenndix 1). Thee audit also covered the
Department’s compliiance with appplicable law    ws, regulatioons, and FWWS guideliness, including those
related too the collectiion and use of hunting annd fishing liicense revenuues and the reporting off
program income.

         We found thaat the Departtment compllied, in generral, with appplicable grannt accountingg and
regulatorry requiremeents. We did identify a pootential diveersion of liceense revenuee of $38,000 for a
Universitty study unreelated to thee administrattion of the Department’ss Fish and Gaame Program   m.
We foundd real properrty deficienccies related to (1) potentiial diversionn of lands froom an abanddoned
prison facility on lands purchasedd with State license reveenues, (2) loss of controll of real propperty
based on 79 identifieed cases of trrespass, (3) improper usee of 400 acrees of real prooperty for doog
trials, andd (4) unreconciled real property recoords with FWWS.

      We provided a draft reporrt to FWS foor a responsee. We summ  marized Depaartment and FWS
Region 3 responses to the recomm mendations, as well as o ur commentts on the responses afterr the
recommeendations. We list the staatus of the reecommendattions in Apppendix 3.

        Please responnd in writingg to the findinngs and recoommendationns included in this reporrt by
April 5, 2012. Your response shoould include informationn on actions taken or plannned, targeteed
completion dates, andd titles of offficials respoonsible for im
                                                              mplementatioon. Please adddress your
response to:



                            Office of Audits, Inspecttions, and Evaluaations | Reston, VA
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski, or me at 703–487–5345.

cc: Regional Director, Region 3, U.S. Fish and Wildlife Service
Table of Contents
Introduction............................................................................................................. 1

   Background ......................................................................................................... 1

   Objectives............................................................................................................ 1

   Scope ................................................................................................................... 1

   Methodology ....................................................................................................... 1

   Prior Audit Coverage .......................................................................................... 2

Results of Audit ...................................................................................................... 3

   Audit Summary ................................................................................................... 3

   Findings and Recommendations ......................................................................... 3

Appendix 1............................................................................................................ 11

Appendix 2............................................................................................................ 12

Appendix 3............................................................................................................ 13

Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts)1 established the Wildlife and Sport Fish Restoration
Program (the Program). Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse states up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of the State’s fish and game agency.
Finally, Federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •	 Claimed the costs incurred under the Program grants in accordance with
          the Acts and related regulations, FWS guidelines, and the grant
          agreements.
       •	 Used State hunting and fishing license revenues solely for fish and 

          wildlife program activities. 

       •	 Reported and used program income in accordance with Federal 

          regulations. 


Scope
Audit work included claims totaling approximately $83.8 million on the 23 grants
that were open during SFYs that ended September 30, 2009, and September 30,
2010 (see Appendix 1). We report only on those conditions that existed during
this audit period. We performed our audit at Department headquarters in Lansing,
MI, and visited three Operations Service Centers, four Field Offices, seven State
Game and Wildlife Areas, one Wildlife Research Area, one State Fish Hatchery,
one Fish Research Station, one Shooting Range, one Seawall, and one Lock and
Dam. (see Appendix 2). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                                                    1
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •	 Examining the evidence that supports selected expenditures charged to the
      grants by the Department.
   •	 Reviewing transactions related to purchases, direct costs, drawdowns of
      reimbursements, in-kind contributions, and program income.
   •	 Interviewing Department employees to ensure that personnel costs 

      charged to the grants were supportable. 

   •	 Conducting site visits to inspect equipment and other property.
   •	 Determining whether the Department used hunting and fishing license
      revenues solely for the administration of fish and wildlife program
      activities.
   •	 Determining whether the State passed required legislation assenting to the
      provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On May 1, 2006, we issued “Final Audit Report on the U.S. Fish and
Wildlife Service Federal Assistance Program Grants Awarded to the State of
Michigan” (R-GR-FWS-0010-2005). We followed up on all recommendations in
the report and found that the U.S. Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget considered them to be
resolved and implemented.

We reviewed the Single Audit Report for the State of Michigan for 2009 and the
Comprehensive Annual Financial Reports for 2009 and 2010. Neither of these
reports contained any findings that would directly affect the Program grants.




                                                                                  2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified several conditions that resulted in the findings listed
below. We discuss the findings in more detail in the Findings and
Recommendations section.

Potential Diversion of License Revenues. We identified a potential diversion of
license revenue of $38,000 for a University study that was unrelated to the
administration of the Department’s Fish and Game Program.

Potential Diversion of Real Property. The Department of Corrections (DOC)
did not raze a prison facility on a 12-acre parcel of land, acquired with license
revenues, located at the Cusino Wildlife Research Station.

Loss of Control of Real Property. The Department has at least 79 cases of
trespass on Program and license-acquired land.

Improper Use of Real Property. The Allegan State Game Area includes about
400 acres managed for dog field trials. The management of the land for field
trials is not compatible with the intended land use of preserving native grasses and
providing nesting habitat for ground birds and animals.

Unreconciled Real Property Records. The Department has not reconciled its
Program-funded real property records with FWS.

Findings and Recommendations
A. Potential Diversion of License Revenues

The Department sells hunting and fishing licenses and collects license fees from
hunters and anglers. Under the Program, the Department must use license
revenue from these sales only to administer its fish and wildlife program. The
Department expended $38,000 of State Game and Fish Funds (license funds) in
SFY 2009 on a forestry study with the Michigan State University called the
Partners in Ecosystem Resource Management. Our review of the study showed
that it was specific to the impact of harvest pattern on diversity and productivity
of tree regeneration in northern hardwood forests. We were unable to identify any
wildlife purpose or component in the study. In SFY 2010, additional payments
for the same study were correctly charged to a forestry funding source and not to
the Game and Fish Fund.




                                                                                    3
According to the Code of Federal Regulations (50 CFR § 80.4) revenues from
license fees paid by hunters and anglers are to be used only for the administration
of the State fish and wildlife agency. A diversion of license fee revenues occurs
when any portion of the license revenues issued for any purpose other than the
administration of the fish and wildlife agency. For purpose of this rule,
administration of the State fish and wildlife agency includes only those functions
required to manage the fish and wildlife resources of the State.

The Department did not properly review the nature of the expense that should
have been charged to the forestry fund. Therefore the Department may have spent
revenues from license fees collected on an activity not related to the fish and
wildlife program. The use of hunting and fishing license revenues for nonfish and
wildlife program purposes would result in a potential diversion of license fees in
violation of 50 CFR § 80.4.

Recommendation

We recommend that FWS resolves the potential diversion of license revenues
totaling $38,000.


Department Response
Department officials concurred with the finding and responded that a journal
voucher was processed restoring the license revenues to the Game and Fish Fund.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department to resolve the finding in the corrective action plan once
the final report is issued.

OIG Comments
Based on the Department and FWS responses, documentation on the journal
voucher including verification that FWS headquarters officials reviewed and
approved of actions taken or planned by the Department need to be included in
the corrective action plan.

B. Potential Diversion of Real Property

The Department is required to protect land resources acquired with Program funds
and license revenue to ensure that the land is used for wildlife purposes. The
Department’s Cusino Wildlife Research Station includes an abandoned prison
residing on approximately 12 acres of lands acquired with license revenues. The
memorandum of agreement between the Department and DOC required that
prison labor be provided for a specific deer research project as well as $1-a-year
in rent, and that the land ultimately be returned to its original wildlife purpose by
razing the prison buildings at DOC expense when the facility is closed. The


                                                                                   4
facility closed on July 26, 2009; however, the prison still remains on the Cusino
Wildlife Research Station land.

According to 50 CFR § 80.18(c) the State must maintain accountability and
control of all assets to assure they serve the purpose for which they were acquired
throughout their useful life. Regulations (50 CFR § 80.14) also require that when
such property passes from management control of the State Fish and Game
agency, the control must be restored to the State fish and wildlife agency.

Further, 50 CFR § 80.4 states, “Revenues from license fees paid by hunters and
fishermen shall not be diverted to purposes other than administration of the State
fish and wildlife agency. In addition, 50 CFR § 80.4(c) states that if a diversion of
license revenues occurs, the State becomes ineligible to participate under the
pertinent Act from the date the diversion is declared by the Director until: “All
license revenues or assets acquired with license revenues are restored, or an
amount equal to license revenue diverted or current market value of assets
diverted (whichever is greater) is returned and properly available for use for the
administration of the State fish and wildlife agency.”

The Department did not enforce the terms of the original memorandum of
agreement requiring the DOC to remove the prison and restore the land to its
intended purpose upon termination of the agreement. As result, there are currently
12 acres of license-acquired land at the Cusino Wildlife Research Station that are
not available to be used as intended, and have therefore been diverted from their
original purpose.

Recommendation

We recommend that FWS ensures that the Department enforce the terms of
the agreement with the DOC by requiring the DOC to remove all
infrastructure associated with the facility and return the land to its original
state.


Department Response
Department officials concurred with the finding and responded that they will
initiate actions with DOC to restore the site.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department to resolve the finding in the corrective action plan once
the final report is issued.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:


                                                                                    5
   •	 The specific actions(s) taken or planned to address the recommendation.
   •	 Targeted completion dates.
   •	 Titles of officials responsible for implementing the actions taken or 

      planned. 

   •	 Verification that FWS headquarters officials reviewed and approved of
      actions taken or planned by the Department.

C. Loss of Control of Real Property

The Department is required to protect land resources acquired with Program funds
and license revenue to ensure that the land is used for wildlife purposes. We
found at least 79 cases of trespass on Program (18 cases) and license (61 cases)
acquired land, of which, 78 cases were identified by the Department in their
database. The other instance of trespass was identified during our site visit to
Crow Island State Game Area.

   •	 On Program-acquired lands, we found 18 cases of trespass, of which, the
      Department identified 17 active cases in their database. Of the 18 cases, 12
      are on wildlife-managed lands and 6 are on forestry-managed lands. Four
      of the 18 trespass cases were identified between 1991 and 1992. At Crow
      Island State Game Area, we found that an adjoining landowner expanded
      its existing parking lot onto the game land, and is storing flat bed trailers,
      steel columns, and concrete blocks on the game land.
   •	 On license-acquired lands, the Department identified 61 active cases in
      their database. Of the 61 cases, 54 are on forestry-managed lands and 7 are
      on wildlife-managed lands. Four of the 61 trespass cases were identified
      between 1980 and 1989.

According to 50 CFR § 80.18(c), States must maintain accountability and control
of all assets to assure they serve the purpose for which they were acquired
throughout their useful life. Regulations (50 CFR § 80.14) also require that when
such property passes from management control of the State Fish and Game
agency, the control must be restored to the State fish and wildlife agency.

A Department official stated the primary cause for the number of trespasses and
the lack of resolution of old cases is failure to follow the Department’s existing
Policies and Procedures (26.26-19 – Non-Timber Trespass Procedure, issued
July 11, 2005). As a result, the Department’s database may not be accurate;
therefore, all cases of trespass may not be identified. Furthermore, the fact that the
Department has not resolved old cases may result in lands not being used for their
intended purposes.




                                                                                    6
Recommendations

We recommend that FWS ensures that the Department:

    1. Makes timely efforts to resolve its backlog of active trespass cases so
       that Program and license lands are returned to their intended
       purposes.

    2. Follows existing Non-Timber Trespass Procedures.


Department Response
Department officials concurred with the finding and will work with FWS to
resolve the trespass cases involving a federal interest or hunting and fishing
license revenues.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department to resolve the finding in the corrective action plan once
the final report is issued.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:
    •	 The specific actions(s) taken or planned to address the recommendations.
    •	 Targeted completion dates.
    •	 Titles of officials responsible for implementing the actions taken or
        planned.
    •	 Verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.

D. Improper Use of Real Property

The Department acquired land with Program funds and license revenue. This land
is to be used for the administration of fish and wildlife resources. Management of
the Allegan State Game Area (the Area) for dog field trials is incompatible with
intended Program grant purposes.

The Department manages the Area which includes about 400 acres for dog field
trials. During field trials, judges assess the performance of dogs. The field trial
area is open to dog use and dog training year round. This has resulted in:

   •	 Elevated disturbance of wildlife during important portions of the year
      (nesting for example).
   •	 As a field trial area open to dog use, there is a release of nonnative bird
      species (i.e., chukars and pigeons) into the habitat. The release of these


                                                                                      7
        birds is not regulated which could result in the release of diseased
        specimens which could infect the native or desirable bird populations.
        Some of these birds are shot and left behind creating an unnaturally high
        concentration of carcasses which could attract additional predators into the
        Area.
   •	   During field trails the participants are allowed to release native species,
        usually quail, which could act as a carrier for disease.
   •	   The field trial permits allow for the use of horses, which may pose
        multiple issues: trampling of habitat, additional disturbance to nesting
        species, introduction of nonnative or undesirable vegetation through hay,
        and wandering of riders into nonpermitted areas, which happens every
        year. The horses are kept near the parking lot where participants camp for
        the weekend and are staked out in various locations – these locations are
        heavily browsed/trampled by the horses and invasive or undesirable
        species take over. Some of these locations are within a restored warm-
        season grass field.
   •	   Field trail dogs do not limit themselves to the field trial area and regularly
        run into unpermitted areas. The participants then follow the dogs on
        horseback, occasionally by vehicle, to retrieve the dog.
   •	   In the past, many activities were allowed including the mowing of trails to
        facilitate the trials, unregulated cutting of wood and trimming of trees,
        camping not covered by the permit, etc. These activities have largely been
        halted or regulated by the permits.

The management of the land for field trials is not compatible with the intended
land use of preserving native grasses and providing nesting habitat for ground
birds and animals.

Title 50 CFR § 80.14(2) clearly state that when “property is used for purposes
which interfere with the accomplishment of approved purposes, the violating
activities must cease and any adverse effects resulting must be remedied.”

The Department has tried to relocate the field trials to other properties, but has
been unsuccessful because the field trial permit holders have been adamant about
staying on the property, claiming all other proposed properties are unacceptable.
As a result, the dog-trial acreage is not being managed for the purpose for which
the property was originally acquired.

Recommendation

We recommend that FWS ensures the Department terminates managing the
Allegan State Game Area for dog field trials.




                                                                                    8
Department Response
Department officials disagreed with the finding and responded that dog field trials
have been approved by FWS in a news release dated October 12, 2001.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department to resolve the finding in the corrective action plan once
the final report is issued. FWS is not in agreement with the Department’s position
and stated that dog field trials have not received “blanket” approval and have been
subject of audit findings in other states.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:
    •	 The specific actions(s) taken or planned to address the recommendation.
    •	 Targeted completion dates.
    •	 Titles of officials responsible for implementing the actions taken or
        planned.
    •	 Verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.

E. Unreconciled Real Property Records

To help maintain control over the use of land acquired with Program funds, the
Department must ensure its database of real property is accurate and is reconciled
with land records maintained by FWS. The Department and FWS agreed a
reconciliation had not been performed. We found that the totals of the 2 set of
records differed by 4,754 acres. For example, for Baraga County the FWS record
showed a total of 240 acres, but the Department records showed 456 acres.
Title 43 CFR § 12.71(a) requires that title to real property acquired under a grant
or subgrant will vest upon acquisition in the grantee or subgrantee, respectively.
Furthermore, 50 CFR § 80.18(c) requires the State to maintain accountability and
control of all assets to assure they serve the purpose for which they were acquired
throughout their useful life. Title 50 CFR § 80.14 also requires that when such
property passes from management control of the State Fish and Game agency, the
control must be restored to the State fish and wildlife agency. In addition, the
FWS Director reiterated land management requirements to Program participants
in a March 29, 2007 letter. The letter requested each State maintain a real
property management system that includes a comprehensive inventory of lands to
ensure that its inventory is accurate and complete.

The Department was not aware that it was required to reconcile records in its land
database with FWS land records to determine their accuracy and completeness.
Without a reconciliation of the records, the Department cannot ensure that lands
are being controlled, accounted for, and used for their intended purposes.




                                                                                  9
Recommendation

We recommend that FWS works with the Department to reconcile its real
property records funded with Program funds.


Department Response
Department officials concurred with the finding and responded that it is ready to
work with FWS to reconcile the land records.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department to resolve the finding in the corrective action plan once
the final report is issued.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:
    •	 The specific actions(s) taken or planned to address the recommendation.
    •	 Targeted completion dates.
    •	 Titles of officials responsible for implementing the actions taken or
        planned.
    •	 Verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.




                                                                                10
Appendix 1
                     State of Michigan 

            Department of Natural Resources

         Financial Summary of Review Coverage 

       October 1, 2008, Through September 30, 2010 


         Grant              Grant          Claimed
        Number             Amount           Costs
    F-62-D-22              $9,084,577      $8,211,262
    F-62-D-23               9,290,579       7,953,828
    F-80-R-10                 901,122         868,258
    F-80-R-11                 861,609         870,873
    F-81-R-10               5,082,422       5,264,876
    F-81-R-11               3,900,412       4,325,576
    F-82-R-9                  162,827         170,606
    F-84-D-6                  403,520         401,235
    F-84-D-7                  401,360         183,673
    F-90-D-1                3,749,877       3,553,987
    F-91-B-1                  250,950         152,598
    F-92-B-1                1,985,420       1,704,141
    F-93-B-1                  776,036         525,138
    F-94-D-1                1,940,910       1,936,419
    FW-4-C-20                 146,563         138,402
    FW-4-C-21                 140,333         131,260
    W-120-S-46              2,456,215       2,348,366
    W-120-S-47              3,370,033       2,890,175
    W-147-R-5              27,683,995      22,460,026
    W-148-M-5               3,533,000       3,567,528
    W-148-M-6               3,740,000       3,233,490
    W-149-P-4              11,951,599      12,714,786
    W-150-D-5                 165,000         138,095
    TOTAL                $91,978,359     $83,744,598




                                                        11
Appendix 2
                   State of Michigan 

            Department of Natural Resources

                      Sites Visited 


                      Headquarters 

                        Lansing

       Operations Service Centers and Field Offices
                        Cass City

                        Grayling

                         Gaylord 

                     Houghton Lake 

                        Newberry 

                        Plainwell 

                      Traverse City 


          State Game Areas and Wildlife Areas
                         Allegan

                       Crane Pond 

                      Crow Island 

                         Deford 

                     Gratiot-Saginaw 

                  Pinconning Township 

                       Rose Lake 


                 Wildlife Research Area
                          Cusino

                   State Fish Hatchery
                        Wolf Lake

                  Fish Research Station
                       Charlevoix

                     Shooting Range
                       Pontiac Lake

                Seawall & Lock and Dam
                Cheboygan Lock and Dam
                   Mitchell State Park




                                                      12
Appendix 3
                            State of Michigan 

                    Department of Natural Resources

             Status of Audit Findings and Recommendations 


 Recommendations                   Status                Action Required
A, B, C.1, C.2, D, and E   FWS management              Based on the FWS
                           concurs with the            response, additional
                           recommendations, but        information is needed in
                           additional information is   the corrective action
                           needed, as outlined in      plan, as listed in the
                           the “Actions required”      Findings and
                           column.                     Recommendations
                                                       section under OIG
                                                       Comments. We will
                                                       refer the
                                                       recommendations not
                                                       resolved and/or
                                                       implemented at the end
                                                       of 90 days (after
                                                       April 5, 2012) to the
                                                       Assistant Secretary for
                                                       Policy, Management and
                                                       Budget for resolution
                                                       and/or tracking of
                                                       implementation.




                                                                             13
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
